                           Office of Inspector General
                           Legal Services Corporation



Inspector General
Jeffrey E. Schanz

3333 K Street. Nw, 3rd Floor
Washington , DC 20007-35 58
202.295. 1660 (p) 202.337.661 6 (f)
www.oig. lsc. go v

                September 27,2010


               James A. Wayne, Sr.
               Executive Director
               Capital Area Legal Services Corporation
               200 Third Street
               Baton Rouge , LA 70801

               Dear Mr. Wayne :

               Enclosed is the Office of Inspector General's (OIG) final report of our audit on
               Selected Internal Controls at Capital Area Legal Services Corporation . The OIG
               has reviewed your comments on the findings and recommendations contained in
               a draft of this report and made the following determinations .

               Your comments described planned corrective actions that are responsive to the
               following 11 recommendations: 1, 2, 3, 4, 7, 8,9 , 10, 11 , 17, and 18. These
               recommendations will remain open pending your notification to LSC
               management that the actions have been taken .

               Your comments were not responsive to the following 10 recommendations: 5, 6,
               12, 13, 14, 15, 16, 19, 20, and 21 . These recommendations will be forwarded ,
               along with the associated questioned costs, to LSC management for action .

               We thank you and your staff for the cooperation and assistance you provided us.

              Sincerely,


            v       '5li2:--
            q:~schanz 0
                                C.

              Inspector General


              Enclosure
        LEGAL SERVICES CORPORATION
        OFFICE OF INSPECTOR GENERAL




REPORT ON SELECTED INTERNAL CONTROLS

CAPITAL AREA LEGAL SERVICES
        CORPORATION




              RNO 619010
           Report No. AU-10-04


              September 2010

               www.oig .lsc.gov




                                      =!LLSC
                                      IIAtn ..iQ'. hrtn.. For Equal   Jwti<~
                              EXECUTIVE SUMMARY

    Audit Process: This audit is a result of assistance provided by the Office of
    Inspector General (OIG) Office of Audit (OA) to support an OIG investigation of
    certain allegations at Capital Area Legal Services Corporation (CALSC or
    grantee). In connection with this assistance, OA conducted a limited-scoped
    audit of CALSC’s disbursements and its accounting treatment of certain
    transactions and the related internal controls.

    Results In Brief: CALSC needs to make significant improvements in its
    processes to ensure that costs are allowable and properly supported and that
    transactions are correctly recorded. As a result of CALSC’s failure to ensure that
    costs were allowed and properly supported, the OIG is questioning a total of
    $318,768 in costs charged to LSC funds; these questioned costs will be referred
    to LSC management for review.

    First, CALSC did not maintain adequate supporting documentation for
    expenditures charged to LSC funds totaling $238,190. These expenditures
    included $11,462 for the Executive Director’s meals, $78,555 for the Executive
    Director’s leased vehicle and gasoline, $3,527 for travel and related costs, and
    $144,646 for consultants.

    Second, the method to allocate costs to LSC funds was not fully documented in
    CALSC’s Financial Manual which limited the OIG’s ability to make a definitive
    determination of the allowability of charges to LSC. Notwithstanding this
    limitation, the OIG identified $80,578 in transactions that were improperly
    charged to LSC. These transactions dealt with rental charges to LSC funds for a
    building that CALSC owns, and an insurance reimbursement for auto repair
    which was not credited to LSC funds even though the repair was initially paid
    with LSC funds. CALSC appears to have also improperly recorded transactions
    dealing with fringe benefits for leased vehicles used for personal travel,
    membership dues, lease payments, subscriptions, and client trust fund interest.
    CALSC may be liable for additional payments to the Internal Revenue Service
    and may be subject to sanctions from the State of Louisiana for not properly
    reporting fringe benefits and not properly handling client trust funds.

    Recommendations:

    The OIG made 21 recommendations to strengthen the internal controls over
    CALSC operations. These included recommendations to CALSC management
    to:

   revise the CALSC Financial Manual to require adequate documentation to
    support acceptable charges to LSC funds and provide explicit descriptions of the
    documentation required and ensure the manual is followed;


                                            i
   ensure that all meals purchased with LSC funds have the business reason fully
    and contemporaneously documented;

   obtain LSC approval for all vehicle leases $10,000 or more and ensure that
    proper vehicle use records are maintained so that no costs associated with
    personal use of the vehicle are charged to LSC funds;

   ensure that consulting contracts contain a clear and complete description of the
    services to be performed and that all items required by the contract are received
    and meet contract requirements;

   develop, fully document, and implement a cost allocation method that meets LSC
    requirements;

   ensure that supporting documentation and explanations for the year-end
    accounting adjustments are maintained and in accordance with the allocation
    system;

   ensure that LSC funds are not charged rent for use of the Gonzales space and
    that if LSC funds are to be used to pay for the Gonzales space that formal
    approval from LSC be obtained and that LSC interest in the building be officially
    recorded;

   identify CALSC expenditures for vehicles and meals that were not adequately
    documented as business expenses and, to the extent not reimbursed by the
    employee for whom they were made, record the expenses as fringe benefits and
    report the fringe benefits to IRS; and

   establish procedures to ensure that: interest on client trust funds is properly
    recorded and transferred to the State Bar’s Interest On Lawyers’ Trust Account
    (IOLTA) program; appropriate reports are filed with the Louisiana Department of
    the Treasury with respect to client trust funds that have been unclaimed for a
    period of over 5 years; and procedures are established to regularly review client
    trust fund accounts to identify funds that have been held for more than 5 years.

    Summary of Grantee Comments: CALSC accepts the OIG recommendation to
    make significant improvements in its processes to ensure that costs are
    allowable and properly supported and that transactions are correctly recorded.
    CALSC further indicated that it will work with its accountant, independent auditor
    and Board of Directors to ensure that proper accounting practices are continued
    and/or implemented.      However, CALSC disagreed with the finding that
    expenditures have not been properly documented and/or supported or that
    expenditures were improperly charged to LSC funds. CALSC’s comments on
    individual recommendations are included in the body of the report and the full
    text of CALSC’s comments is included in Appendix II.



                                            ii
OIG Evaluation of Grantee Comments: Although management’s overall
comments indicated that CALSC disagrees that expenditures have not been
properly documented and/or supported or that expenditures were improperly
charged to LSC funds, grantee management provided no documentation
supporting its position. Consequently, the OIG will refer $318,768 of questioned
costs to LSC management for review in accordance with 45 C.F.R. § 1630.7.

The OIG’s evaluation of CALSC’s specific comments on the 21
recommendations is included in the body of the report and summarized below:

The OIG considers CALSC’s comments to be responsive to 11 recommendations
in the following areas:

      Revising the CALSC Financial Manual to require adequate
       documentation.
      Strengthening internal controls to ensure compliance with the CALSC
       Financial Manual.
      Obtaining approvals for leases.
      Developing and maintaining an acceptable cost allocation system.
      Consistently recording transactions.

The OIG considers CALSC’s comments to be non-responsive to 10
recommendations pertaining to the areas listed below and these will be referred
to LSC for follow up action:
     Establishing controls over the use of vehicles.
     Charging itself rent for a building owned by CALSC.
     Establishing controls over client trust funds.
     Recording and IRS-reporting of fringe benefits.

The OIG considers all recommendations open until provided written notification
that all actions have been completed.




                                       iii
                                          Table of Contents
INTRODUCTION ....................................................................................... 1 
BACKGROUND ......................................................................................... 1 
OBJECTIVE, SCOPE AND METHODOLOGY .......................................... 1 
Scope Limitation ........................................................................................ 2 
OVERALL EVALUATION .......................................................................... 3 

AUDIT FINDINGS...................................................................................... 4
I. Expenditures Not Adequately Documented ........................................... 4
Meals and Entertainment Expenses .......................................................... 4
Leased Vehicle and Gasoline Expenses ................................................... 5
Travel and Other Expenses ....................................................................... 7
Consultant Contract Expenses .................................................................. 7
Recommendation 1 ................................................................................... 8
Recommendation 2 ................................................................................... 8
Grantee Management Comments ............................................................. 8
OIG Evaluation of Grantee Management Comments .................................9
Recommendation 3 ................................................................................... 9
Grantee Management Comments ..............................................................9
OIG Evaluation of Grantee Management Comments ...............................10
Recommendation 4 ................................................................................. 10
Recommendation 5 ................................................................................. 10
Recommendation 6 ................................................................................. 10
Grantee Management Comments ........................................................... 10 
OIG Evaluation of Grantee Management Comments .............................. 10
Recommendation 7 ................................................................................. 11
Grantee Management Comments ........................................................... 11
OIG Evaluation of Grantee Management Comments ...............................11
Recommendation 8 ................................................................................. 11
Recommendation 9 ................................................................................. 11
Grantee Management Comments ........................................................... 12 
OIG Evaluation of Grantee Management Comments .............................. 12

II. Transactions Not Properly Recorded ................................................... 13
Cost Allocation System ............................................................................ 13
Rental of Gonzales Building Office Space ............................................... 14
Auto Repair Reimbursement ................................................................... 15
Fringe Benefits ........................................................................................ 16
Account Classification and Description .................................................... 17
Client Trust Fund Interest and Dormant Accounts ................................... 18
                                        Table of Contents
                                                (continued)


Client Trust Fund Interest ........................................................................ 18
Dormant Accounts ................................................................................... 18
Recommendation 10 ............................................................................... 19
Recommendation 11 ............................................................................... 19
Grantee Management Comments ........................................................... 19
OIG Evaluation of Grantee Management Comments ...............................20
Recommendation 12 ............................................................................... 20
Recommendation 13 ............................................................................... 20 
Recommendation 14 ............................................................................... 20
Grantee Management Comments ........................................................... 20
OIG Evaluation of Grantee Management Comments .............................. 20
Recommendation 15 ............................................................................... 21 
Recommendation 16 ............................................................................... 21
Grantee Management Comments ........................................................... 21
OIG Evaluation of Grantee Management Comments ...............................21
Recommendation 17 ............................................................................... 22
Recommendation 18 ............................................................................... 22
Grantee Management Comments ............................................................22
OIG Evaluation of Grantee Management Comments ...............................22
Recommendation 19 ............................................................................... 22
Recommendation 20 ............................................................................... 22
Recommendation 21 ............................................................................... 22
Grantee Management Comments ........................................................... 22
OIG Evaluation of Grantee Management Comments .............................. 23

APPENDIX I - Standards Governing Allowability of Costs Under
  Corporation Grants or Contracts

APPENDIX II - Grantee Management Comments
                                                               INTRODUCTION
This audit is a result of assistance provided by the Office of Inspector General
(OIG) Office of Audit (OA) to support an OIG investigation of certain allegations
at Capital Area Legal Services Corporation (CALSC or grantee). In connection
with this assistance, OA conducted a limited-scoped audit of CALSC’s
disbursements and its accounting treatment of certain transactions and the
related internal controls.


                                                               BACKGROUND
CALSC is a nonprofit organization created in 1958. Prior to 1974, CALSC was
known as the Legal Aid Society.          CALSC provides legal assistance to
12 parishes in the State of Louisiana and is funded primarily by LSC. According
to LSC’s data for calendar year 2009, CALSC received $1,511,082 from LSC.


                     OBJECTIVE, SCOPE AND METHODOLOGY
The objectives of the OIG’s audit were to (1) assess whether selected
expenditures1 were properly charged to LSC funds, and (2) determine whether
certain transactions were properly recorded in CALSC’s accounting records. The
OIG also assessed specific internal controls dealing with issues identified. The
audit was limited in scope and was not sufficient for expressing an opinion on the
entire system of grantee internal controls over financial operations or internal
controls over compliance with LSC regulations.

To test for the appropriateness of expenditures and the existence of adequate
supporting documentation, the OIG reviewed disbursements from employee and
vendor files. The OIG reviewed invoices, contracts, check vouchers, and
payments to vendors including restaurants and membership clubs.           The
appropriateness of grantee expenditures was assessed, based on the grant
agreements, applicable laws and regulations, LSC policy guidance, and CALSC’s
policies and procedures. To test transactions, the OIG traced the associated
transaction to check payments and to entries in the grantee’s journals and
general ledgers.

Grantee officials, board members and staff were interviewed as to their
knowledge and understanding of the processes in place related to disbursements
and accounting issues identified in our review. CALSC’s current and former
independent public accountants (IPAs) were also interviewed, and information

                                                            
1
    The expenditures reviewed were directly related to an OIG investigation.

                                                                    1
was obtained from the IPAs regarding CALSC’s audit reports and internal
processes.

Fieldwork was conducted at the grantee’s central administrative office located in
Baton Rouge, Louisiana from June 22 through July 1, 2009 and at headquarters
in Washington, DC. Documents reviewed pertained to the period January 1,
2005 through May 31, 2009. For vehicle leases and the Gonzales building
purchase, the OIG reviewed applicable documents pertaining to the period
January 2000 through May 2009. Computer-generated data provided by the
grantee were relied on to determine whether entries recorded in computer
systems matched the information contained on the source documents. The OIG
also relied upon the computer generated financial records when assessing
whether financial transactions were properly recorded in the financial records.
The general and application controls over the computer system were not tested.

This audit was conducted in accordance with generally accepted government
auditing standards. Those standards require that the audit be planned and
performed to obtain sufficient, appropriate evidence to provide a reasonable
basis for the audit findings and conclusions based on the audit objectives. The
evidence obtained provides a reasonable basis for the findings and conclusions
based on the audit objectives.

Scope Limitation

During the audit, the OIG was not provided with post-closing general ledgers
reflecting all audit adjustments nor supporting documentation for adjustments
made by the IPA. CALSC’s officials stated that they did not have a final version
of some of the general ledgers and that the information would have to be
obtained from their auditors. CALSC’s former and current auditor prepared
numerous journal entries at year end to adjust general ledger accounts. Along
with correcting the account balances, these entries moved expenditures between
LSC and non-LSC funds. Not being able to review the final general ledgers and
supporting documentation for the adjustments prevented the OIG from being able
to perform a complete analysis of CALSC’s financial transactions and recorded
expenditures. As a result, the OIG conducted the audit based on the
documentation that was provided by CALSC and the pre-closing general ledgers,
which did not include the independent auditor’s adjustments.

The documents and financial records that were used to perform this audit gave
the OIG some assurance about the nature of CALSC’s transactions during the
audit period, but not complete assurance. The OIG could not definitively
determine which expenditures were charged to LSC funds and whether those
expenditures were made in accordance with LSC regulations.




                                       2
                       OVERALL EVALUATION
CALSC needs to make significant improvements in its processes to ensure that
costs are allowable and properly supported and that transactions are correctly
recorded. As a result of CALSC’s failure to ensure that costs were allowed and
properly supported, the OIG is questioning a total of $318,768 in costs charged
to LSC funds.

First, CALSC did not maintain adequate supporting documentation for
expenditures charged to LSC funds totaling $238,190. These expenditures
included $11,462 for the Executive Director’s meals, $78,555 for the Executive
Director’s leased vehicle and gasoline, $3,527 for travel and related costs, and
$144,646 for consultants. The OIG is questioning the $238,190 of inadequately
supported expenditures and will forward the questioned costs to LSC
management for action.

Second, the method to allocate costs to LSC funds was not fully documented in
CALSC’s Financial Manual which limited the OIG’s ability to make a definitive
determination of the allowability of charges to LSC. Notwithstanding this
limitation, the OIG identified $80,578 in transactions that were improperly
charged to LSC. These transactions dealt with rental charges to LSC funds for a
building that CALSC owns, and an insurance reimbursement for auto repair
which was not credited to LSC funds even though the repair was initially paid
with LSC funds. The OIG is questioning the $80,578 in improper charges and
will forward the questioned costs to LSC management for action. CALSC
appears to have also improperly recorded transactions dealing with fringe
benefits, membership dues, lease payments, subscriptions, and client trust fund
interest and may be liable for additional payments to the Internal Revenue
Service and may be subject to sanctions from the State of Louisiana.




                                       3
                                        AUDIT FINDINGS
I. Expenditures Not Adequately Documented

CALSC made expenditures using LSC funds totaling $238,190 that were not
supported by adequate documentation. These expenditures pertained to the
following categories: meals and entertainment expense; leased vehicle and
gasoline expense; travel and other expense; and consultant contract expense.
This condition occurred because CALSC did not have effective internal controls
to ensure compliance with its Financial Manual. Also, CALSC did not include in
its Financial Manual sufficient information as to what documentation was required
to support expenditures.
LSC regulation 45 C.F.R. § 1630.3 (“Standards governing allowability of costs
under Corporation grants or contracts”), states that expenditures by a recipient
are allowable under the recipient’s grant or contract only if the recipient can
demonstrate that the cost has met nine requirements. Among other things, these
requirements state that the recipient must demonstrate that the cost was actually
incurred in the performance of the grant, was reasonable and necessary for the
performance of the grant, and was adequately and contemporaneously
documented in business records. (See Appendix I for a complete list of the nine
requirements and the definition of a reasonable cost.)

For the items addressed in the following sections, CALSC did not maintain
adequate, contemporaneous documentation to demonstrate that the costs were
reasonable and, therefore, allowable.


Meals and Entertainment Expenses

The OIG identified $11,462 of inadequately supported CALSC payments for the
Executive Director’s meals.2 Of the amount, $8,953 was clearly charged to LSC
funds and a portion of the remaining $2,509 was also charged to LSC funds
(records did not clearly show the apportionment between LSC funds and non-
LSC funds). The Executive Director frequently dined (breakfast, lunch, and
dinner) at a private business club and restaurants in Baton Rouge. Invoices,
meal tickets, receipts and statements from these establishments were sent
directly to the CALSC accounting department for payment. Purpose of the meal
and names of guests were added on some of the receipts and statements after
                                                            
2
   The OIG’s review of CALSC’s general ledgers revealed that a total of $33,150 was expended for meals 
and entertainment during the audit period.  Of the amount recorded in the general ledgers, $19,262 was 
charged  to  LSC  funds  and  $13,888  was  charged  to  non‐LSC  funds.    We  reviewed  documentation  (check 
vouchers,  receipts,  and  vendors’  invoices  or  billing  statements)  for  meals  totaling  $22,876  (charged  to 
both LSC and non‐LSC funds).  Of that amount, we identified $11,462 of inadequately supported payments 
for the Executive Director’s meals.  

                                                         4
the fact by the Executive Director, typically more than a month later. However,
the specific LSC grant-related business purposes of the meals were not included
in the supporting documentation. Many of the meals were lunches and dinners
where the Executive Director dined alone, and some meals took place on
weekends.

CALSC indicated that it used the current payment process because it did not
have a credit card. As a result, the Executive Director converted his personal
restaurant accounts to CALSC accounts, allowing his meal charges to be directly
billed to CALSC. The Executive Director indicated that he instructed the
accounting department not to pay the bills until he identified those charges that
were business expenses. Accounting personnel stated that, in practice, when
the Executive Director does not identify those business charges timely, they
make a judgment call on what they deem to be business related, pay the bill, and
then deduct any meal expenses determined to be personal from the Executive
Director’s paycheck through a payroll deduction.

The CALSC payment practice does not comply with its own financial manual and
does not provide adequate internal control over the allowability of meals and
entertainment expenses. Personal expenses are being inappropriately charged
to the grantee and decisions on allowability of the charges are being made after
the fact rather than on contemporaneous supporting documentation.

The OIG provided CALSC a detailed listing of the inadequately supported meal
expenses. CALSC did not identify any on the list as having been deducted from
the Executive Director’s paycheck through a payroll deduction. Although the
Executive Director provided a notarized statement that, to the best of his
knowledge, all meals during the period whether charged to LSC or non-LSC
funds were for official business, such a statement is insufficient. Business
expenses should be adequately and contemporaneously documented.

Because the payments were not fully supported, the OIG is questioning the
$11,462 for meals and will refer the questioned costs to LSC for review in
accordance with 45 C.F.R. § 1630.7.


Leased Vehicle and Gasoline Expenses

For the period January 2005 through May 2009, CALSC charged LSC funds
$78,555 for expenses associated with a CALSC leased vehicle used by the
Executive Director. The Executive Director used the vehicle for both business
and personal use without prior approval from LSC and without adequate
documentation identifying when the vehicle was used for business and when the
vehicle was used for personal reasons. Also, the Executive Director did not
maintain and provide CALSC any records to document the use of the vehicle as
required by the Internal Revenue Service (IRS). Lacking adequate records,

                                       5
CALSC did not report to IRS as required the value of all use of the vehicle by the
Executive Director as wages.3

In February 2000, CALSC submitted to LSC a request to lease two vehicles, one
of which was primarily for the Executive Director’s use. LSC regulation 45 C.F.R.
§ 1630.5(b)(2) (“Costs requiring Corporation prior approval”) requires prior
approval of “[p]urchases and leases of equipment, furniture, or other personal,
non-expendable property, if the current purchase price of any individual item of
property exceeds $10,000.”

The original request to LSC for the leases did not disclose that the vehicles
would be used for both business and personal use. The original request
indicated that the vehicles were to be used for business purposes and were
going to be available for all staff to use. LSC officials requested additional
information which CALSC supplied and the request was approved for a period of
one year.4 A follow-up request from CALSC to continue leasing the vehicles for
an additional two years was approved by LSC in April 2001. CALSC did not
submit requests for approval after the April 2001 approval expired in 2003.
According to CALSC officials, even though the current vehicle leases were not
approved, the leases have the same general leasing terms and the justification
submitted for the original leases has not changed. LSC regulations do not make
exceptions to obtaining prior approval.

The vehicle leasing expenses charged to LSC funds included $56,442 for vehicle
lease payments and $4,233 for the related down payment on the vehicle.
Gasoline expenses of $24,088 were charged to LSC funds. The Executive
Director reimbursed $6,208 of the gasoline charges as being related to his
personal use of the leased vehicle. Since trip logs were not maintained, the OIG
could not determine if an appropriate amount was reimbursed by the Executive
Director for gas. The Executive Director did not make any reimbursement for the
cost of the lease or the related down payment for his personal use of the vehicle
and trip logs were not maintained documenting the business versus personal use
of the vehicle.

CALSC officials stated that “usage of trip logs was negated by the fact that the
vehicle for the Executive Director was going to be used primarily by the
Executive Director and the majority of the trips would be for LSC business
purposes.” Regardless of whether a majority of the trips were to be for business
purposes, records were not maintained to ensure that LSC funds were not used
for personal expenses and to meet IRS requirements.

                                                            
3
  See page 12 of this report on issues related to reporting employee taxable fringe benefits to
IRS.
4
   LSC’s final approval document referenced the request for additional information and
acknowledged the receipt of the requested information. However, because of the age of the
documents, dated March 14, 2000, and April 19, 2000, LSC management was unable to locate
the two documents.

                                                               6
Because the payments were not properly approved by LSC and not fully
supported, the OIG is questioning the $56,442 in lease payments for the
Executive Director’s vehicle5, $4,233 for the related down payment on the
vehicle, and $17,880 for gasoline expenses. These questioned costs will be
referred to LSC for review in accordance with 45 C.F.R. § 1630.7.


Travel and Other Expenses

Inadequately supported travel expenses were charged to LSC funds. These
charges amounted to $3,273 and were for hotel, car rental, and airport parking
expenses. An unsupported expense of $254 was also charged to LSC for a
mirror for the Executive Director’s leased vehicle.

Examples of inadequately supported expenses included charges to a CALSC
debit card with only a bank statement showing the amount charged attached as
support. Also, for some of the travel disbursements, CALSC only had an
unapproved expense statement as support, with an inadequate description of the
trip purpose and no invoices or receipts attached for gas, parking or other
miscellaneous expenses. For these types of expenses, an approved invoice or
receipt showing a description of the good or service, the price, date, and vendor
would ordinarily be needed to support the expense, so as to document the
amount of the charge and that it was an allowable charge to the LSC grant.

Because the payments were not adequately supported, the OIG is questioning
$3,527 for the travel expenses and the mirror purchase, and will refer the
questioned costs to LSC for review in accordance with 45 C.F.R. § 1630.7.


Consultant Contract Expenses
 
During the audit period, CALSC paid consultants $164,679 for fundraising
activities of which $144,646 was charged to LSC funds and $20,033 was
charged to non-LSC funds. The contract expenses were not adequately
supported. The contracts did not clearly describe the deliverables. The
contracts did require that action plans be submitted to CALSC concerning
strategies for fundraising, but according to CALSC officials, such plans were not
submitted. Invoices included the number of hours claimed to have been worked
by the consultants for “fundraising services” but did not include a description of
these services or when they were performed.

While CALSC provided minutes of Board meetings during which the Executive
Director made positive comments about the consultants’ fundraising efforts,
CALSC did not provide adequate documentation related to the actual services
                                                            
5
  The cost for second leased vehicle was not charged to LSC according to CALSC’s records and
therefore the cost is not questioned.

                                                               7
performed. Good business practices dictate that consultant contracts clearly
spell out the services to be performed and the requirements for the consultant to
provide reports related to those services. In the absence of documentation
supporting the services provided by the consultants, the grantee cannot
determine whether the charge is reasonable under the contract. Without this
documentation, the OIG could not assess the reasonableness of the consultant
charges.

Because the expenditures were not properly supported, the OIG is questioning
the $144,646 for consulting contracting services and will refer the questioned
costs to LSC for review in accordance with 45 C.F.R. § 1630.7.
Recommendations – The CALSC Executive Director should:

Recommendation 1. Revise the CALSC Financial Manual to require adequate
documentation to support acceptable charges to LSC funds and provide explicit
descriptions of the documentation required.

Recommendation 2. Strengthen internal controls to ensure compliance with the
CALSC Financial Manual.


      Grantee Management Comments

      CALSC’s Financial Manual is being revised and will be presented to
      CALSC’s Board for review in October 2010 and submitted for final
      approval at the Board’s January 2011 meeting. The revised
      Financial Manual will require adequate documentation to support
      acceptable charges to LSC Funds and will include a description of
      the documentation required. The manual will also require that
      documentation related to expenditures demonstrate that the cost
      was actually incurred in the performance of the grant, was
      reasonably necessary to the performance of the grant, and was
      adequately and contemporaneously documented in business
      records. It will require CALSC to meet all of the requirements set
      out in 45 CFR 1630.3. CALSC will institute steps to ensure that the
      Financial Manual is followed and that any other requirements as
      stated by LSC, OIG, CALSC’s IPA, accountant and Board of
      Directors are implemented and followed. In the interim, the
      recommendations of CALSC’s IPA and the OIG will be followed.

      Though it is implementing these recommendations, CALSC
      maintains that it has provided evidence that the expenditures
      reviewed by the OIG meet the criteria set out in 45 CSR [sic]
      §1630.3



                                       8
       OIG Evaluation of Grantee Management Comments

CALSC’s planned actions are responsive to the recommendations. However,
Recommendations 1 and 2 will remain open until CALSC’s Financial Manual has
been revised, approved by the CALSC Board of Directors of Directors, and
implemented.

The OIG disagrees with CALSC’s comments that it has provided evidence that the
expenditures reviewed by the OIG meet the criteria set out in 45 C.F.R. § 1630.3.
CALSC did not provide adequate supporting documentation during the audit and
has provided no additional supporting documentation in response to the draft
report. The OIG will refer the questioned costs to LSC for review in accordance
with 45 C.F.R. § 1630.7.

 Recommendation 3. Limit expenditures for meals purchased with LSC funds to
 those with a legitimate purpose related to the grant. All meals purchased with
 LSC funds should have the business reason fully and contemporaneously
 documented to show that the expenditure was reasonable and necessary for the
 performance of the grant.


       Grantee Management Comments

       As described in CALSC’s responses to the OIG’s Request for
       Information regarding meals and entertainment expenses, it was
       CALSC’s practice to reimburse James Wayne, Executive Director,
       for meal and entertainment expenses related to CALSC business.
       This was effectuated in some cases by direct submission of
       invoices from the vendor to CALSC’s accounting department.
       Mr. Wayne then presented documentation for those items which
       were business related.     Expenditures identified as personal
       expenses were either paid by Mr. Wayne or those expenditures
       were deducted from his payroll check in order to reimburse CALSC.

       This practice has been changed. Modifications to CALSC’s
       Financial Manual will include changes regarding meal and
       entertainment expenses. These changes will require CALSC
       employees to submit requests for reimbursement for any business-
       related expense. There will no longer be any direct charges to
       CALSC for this activity. Additionally, CALSC will implement better
       internal controls to determine the allowability of meals and
       entertainment expenses contemporaneous with receipt of
       supporting documentation. CALSC will ensure that all meals and
       entertainment expenditures using LSC funds are for business
       reasons and that those reasons are fully and contemporaneously

                                        9
      documented. Appropriate controls for use of the CALSC corporate
      VISA/Debit Card will also be described in the Financial Manual.


      OIG Evaluation of Grantee Management Comments

CALSC’s planned actions are responsive to the recommendation. However,
Recommendation 3 will remain open until CALSC’s Financial Manual has been
revised, approved by the CALSC Board of Directors, and implemented.

Recommendation 4. Obtain LSC approval for all vehicle leases as required by
45 CFR § 1630.5.

Recommendation 5. Ensure that vehicle users maintain records adequately
documenting the business use of all vehicles. If personal use is permitted,
maintain records adequately documenting such use.

Recommendation 6. If leased vehicles funded with LSC funds be approved for
personal use, establish controls to ensure that the grantee is reimbursed for
vehicle expenses for all personal use including lease payments, gasoline,
insurance, and repairs and maintenance, and that the reimbursement is credited
to the grantee’s LSC funds.


      Grantee Management Comments

      If CALSC enters into a lease that requires LSC approval, CALSC will
      obtain that approval. It has revised its vehicle use policy and that
      policy is attached to this response.        This policy has been
      implemented to address the recommendation of the OIG.

      CALSC will ensure that proper vehicle use records are maintained so
      that no cost associated with personal use of the vehicle are charged
      to LSC funds. It should be noted that neither of the present leased
      vehicles cost more than $10,000 per year during the leased period.

      CALSC submits that it has provided documentation for expenditures
      related to the leased vehicles.

      OIG Evaluation of Grantee Management Comments

CALSC’s planned actions are partially responsive. CALSC agreed to obtain
approval for any lease that requires LSC approval (Recommendation 4). The
CALSC response also stated that neither of the present leased vehicles cost
more than $10,000 per year during the leased period. However, this is not the
criteria for obtaining prior approval stated in 45 CFR § 1630.5. Rather, in

                                     10
accordance with that section, CALSC should have obtained prior approval of the
leases from LSC.

CALSC submitted a revised vehicle use policy that does not ensure that (1) all
vehicle users, including the Executive Director, maintain records adequately
documenting the business and personal use of vehicles and (2) the grantee is
reimbursed for vehicle expenses for all personal use including lease payments,
gasoline, insurance, and repairs and maintenance, and the reimbursement is
credited to the grantee’s LSC funds (Recommendations 5 and 6).

The OIG disagrees with CALSC’s comments that it has provided documentation
for expenditures related to leased vehicles. The CALSC response provided no
additional supporting documentation. The OIG will refer the questioned costs to
LSC for review in accordance with 45 C.F.R.           § 1630.7.     In addition,
Recommendations 4, 5, and 6 will be referred to LSC for follow-up action.

Recommendation 7. Ensure that all bank card charges are supported with an
original receipt and that the business purpose of each charge is fully and
contemporaneously documented.

      Grantee Management Comments

      CALSC’s Financial Manual will be revised to address this
      recommendation.

      OIG Evaluation of Grantee Management Comments

CALSC’s planned actions are responsive to the recommendation. However,
Recommendation 7 will remain open until CALSC’s Financial Manual has been
revised, approved by the CALSC Board of Directors, and implemented.

Recommendation 8. Ensure that consulting contracts contain a clear and
complete description of the services to be performed and a requirement that the
consultant provide detailed reports for the services provided.

Recommendation 9. Require that invoices for consultant contracts contain a
detailed description of the work performed, not just a record of the hours
expended. In addition, ensure that all items required by the contract are received
and meet contract requirements.




                                       11
      Grantee Management Comments

      The purpose of all consultant contracts will be adequately
      supported.       Any such contracts will clearly describe the
      deliverables, require an action plan, require description of the
      services performed, and provide adequate contemporaneous
      documentation related to the actual services performed. The
      contracts will also require that the consultants provide reports
      related to their services. CALSC will implement procedures to
      ensure that all items required by the contract are received and meet
      the contract requirements.

      CALSC will require that all contracts meet the requirements
      recommended in the 2010 Edition of the Accounting Guide for LSC
      recipients. This will also be included in CALSC’s Financial Manual.

      CALSC maintains that it has submitted justification for the
      payments made to consultants and reviewed by OIG and that those
      payments were reasonable. Therefore, these expenditures were
      properly incurred and charged to LSC funds.


      OIG Evaluation of Grantee Management Comments

CALSC’s planned actions are responsive to the recommendations. However,
Recommendations 8 and 9 will remain open until CALSC’s Financial Manual has
been revised, approved by the CALSC Board of Directors, and implemented.

The OIG disagrees with CALSC’s comments that it has provided adequate
justification for the payments made to consultants and that the payments were
reasonable. The justification provided during the audit and reviewed by the OIG
was not adequate to support the payments made. CALSC provided no additional
supporting documentation in response to the draft report. The OIG will refer the
questioned costs to LSC for review in accordance with 45 C.F.R. § 1630.7.




                                      12
II. Transactions Not Properly Recorded
CALSC did not have an adequately documented cost allocation system and did
not properly record certain transactions in its books and records.    The
transactions dealt with the following and are explained below:

      Rent for the Gonzales building
      An auto repair reimbursement
      Fringe Benefits
      Membership dues, lease payments, and subscriptions
      Client trust fund interest

These conditions occurred was because (1) CALSC did not have sufficiently
detailed policies and procedures that addressed the proper handling of the
transactions identified by the OIG, and (2) CALSC did not have corresponding
internal controls in place to ensure that the CALSC policies and procedures were
followed. As a result, the OIG is questioning $80,578 in charges made to LSC
funds.


Cost Allocation System

The current cost allocation system was not fully documented in CALSC’s
Financial Manual and CALSC could not provide an accurate description of the
allocation process while we were on site. LSC’s rules regarding allocations
among funds are set forth in 45 C.F.R. Part 1630. When asked, CALSC’s
financial officials could not explain how the system operated or how specific
costs were allocated. As a result, the OIG could not determine whether
adequate internal controls were in place or how certain expenditures were
ultimately allocated among the various funding sources, including LSC.

CALSC’s current and former IPAs customarily proposed a large number of year-
end adjustments to the grantee’s accounting records, which include reclassifying
certain expenditures to different accounts and sub-accounts within the
accounting system. When asked about the nature of the adjustments, CALSC’s
management could not provide or explain the adjustments. Nor did CALSC’s
management maintain documents supporting the adjustments.               CALSC
management referred the OIG to the IPA for all matters concerning audit
adjustments. The grantee’s lack of knowledge of the proposed audit adjustments
to its books raised significant questions about the understanding of the
composition of the accounts in the grantee’s financial system. Adjusting journal
entries proposed by IPAs must be accepted by management as its own. In order
to accept those entries, management must have a thorough understanding of the
adjustments and the effect on the accounts and financial statements.



                                      13
The OIG contacted the IPA and was provided with a copy of the FY 2008 audit
adjustments but not the supporting documentation. Our analysis revealed that
there were adjustments made to 66 different accounts ranging from $9.00 to
$503,940. This represented a large number of annual adjustments for an
organization the size of CALSC and could indicate a significant weakness in its
accounting function.

Adjusting entries to CALSC accounts proposed by the IPA at year end
significantly changed how expenditures were originally allocated to funding
sources. Some expenditures for meals, vehicles, and travel were initially directly
charged to LSC funds and other expenditures were initially charged to non-LSC
funds. However, due to the large number of adjustments, some of the charges to
non-LSC funds may have been reallocated to LSC at year end, and some
charges to LSC funds may have been reallocated to non-LSC funds. The OIG
was unable to determine the impact of the reallocations because CALSC could
not explain the nature of the audit adjustments and did not provide any
documentation supporting the adjustments. Having adequate documentation of,
or at a minimum, being able to explain allocations and reallocations is critical to
determining exactly what was ultimately charged to LSC funds and whether
those charges were in accordance with LSC regulations.


Rental of Gonzales Building Office Space

CALSC was charging rent to LSC funds for a building that CALSC owned. This
practice creates an interest in the building for LSC and constitutes a questioned
cost for the rent charges because they are not reasonable and necessary.

In FY 2001, CALSC purchased the Gonzales Building for $425,000 by borrowing
$25,000 from the seller through a promissory note and obtaining a $400,000 loan
from a local bank. CALSC did not request LSC approval for the purchase
because CALSC claimed that LSC funds were not being used for the purchase.
CALSC occupies office space in the building it purchased and pays itself rent in
the amount of $750 per month. It then charges this rent to LSC funds. At $750
each month, CALSC has paid itself an estimated $9,000 per year for 8-½ years,
amounting to approximately $76,500. (It should be noted that the exact amount
charged to LSC funds each year is unclear because adjusting entries to the
space accounts were made at year-end and the OIG was not furnished the
support for these adjustments.)

CALSC contends that rent payments were appropriate and do not create an
interest. CALSC stated that there is no difference between LSC paying rent for
space in the Gonzales office, which CALSC now owns, and LSC paying rent for
the Baton Rouge office, which CALSC does not own. CALSC also contends that
since LSC funds were used to rent the same office space from the previous



                                        14
owner, CALSC would be entitled to rent from LSC funds after purchasing the
building.

CALSC is a single entity and need not pay itself rent to occupy a building it
already owns. As such, rent payments charged to LSC funds were not
reasonable and necessary in our opinion and stripped down to economic
essentials, the grantee’s rent payments function as a mechanism for converting
LSC funds to non-LSC funds that could be used to pay the mortgage on the
Gonzales building, thus not recognizing LSC’s interest in the property.

As a matter of economic reality, it appears that LSC funds are being used to
finance the purchase of the Gonzales building. By charging LSC rent, CALSC
obscures the LSC character of the funds used to purchase the building.
Accordingly, we conclude that CALSC’s payment of rent to itself with LSC funds
for office space in a building that it owns likely creates an interest in an amount
equal to the value of the rent paid. To the extent an interest exists, CALSC must
first obtain the permission of LSC and/or compensate LSC for its interest in the
property should CALSC wish to convert the property for other uses or sell the
property in the future.

Even if the rent payments in question did not create an interest, they would
amount to a questioned cost because it is not reasonable and necessary for a
single entity to pay itself rent in order to occupy a building that it already owns.
Unless and until CALSC establishes LSC’s interest in an amount equal to the
value of rent paid, the OIG questions the cost of all rent payments that CALSC
made with LSC funds after it purchased the Gonzales building.

Because the rent payments were not reasonable and necessary, the OIG is
questioning the $76,500 for rent payments and will refer the questioned costs to
LSC for review in accordance with 45 C.F.R. § 1630.7.


Auto Repair Reimbursement

If LSC funds are used to pay for a good or service that is subsequently
reimbursed, the reimbursement should be recorded as LSC revenue according to
Section 2-2.7 of the accounting manual for LSC recipients and generally
accepted accounting principle of matching income and expenses.

In December 2005, CALSC received a check for $4,077.77 from an insurance
company related to repair work on a leased vehicle that was involved in an auto
accident in November 2005. CALSC recorded the amount in a non-LSC
miscellaneous income account. When the repair work was completed in
January 2006, CALSC charged the cost of the repair to LSC funds rather than to
the non-LSC funds that the insurance check was recorded against.



                                        15
When informed of this situation, CALSC stated that the reimbursement was
mistakenly recorded incorrectly and recognized that LSC funds were required to
be reimbursed when the check was received.

As a result of the finding, the OIG is questioning the $4,077.77 charged to LSC
funds for car repairs and will refer the questioned costs to LSC for review in
accordance with 45 C.F.R. § 1630.7.


Fringe Benefits

Some CALSC expenditures (both LSC funded and non-LSC funded) may have
been more properly characterized as personal employee expenses rather than
CALSC business-related expenses. CALSC should have recorded these
expenditures as fringe benefits to the employee and made the appropriate
reporting to the employee and IRS in accordance with IRS regulations.

According to Internal Revenue Service guidance:

   A fringe benefit is a form of pay for the performance of services. For
    example, a fringe benefit is provided to an employee when the employee is
    allowed to use a business vehicle to commute to and from work. Any fringe
    benefit provided is taxable and must be included in the recipient’s pay unless
    the law specifically excludes it. (IRS Publication 15-B)
   If an employer-provided vehicle is used for both business and personal
    purposes, substantiated business use is not taxable to the employee.
    Personal use is taxable to the employee as wages. However, if records are
    not provided by the employee, the value of all use of the automobile is wages
    to the employee, and the employee can then take itemized deductions for any
    substantiated business use on Form 1040, Schedule A. Reg. §1.132-5(b).
    (IRS Fringe Benefit Guide, Federal, State, and Local Governments)

   The employer should require the employee to maintain timely-kept records for
    meals and entertainment that detail the following elements:

       The business purpose for the expense or the business benefit gained or
        expected to be gained.
       Occupations or other information (such as names, titles, or other
        designations) about the recipients that shows the business relationship.
        (IRS Publication 463)

CALSC expenditures that were not adequately supported as business expenses
are required to be treated as fringe benefits to the employee if the expense was
personal in nature. Examples are described below:




                                        16
       CALSC leases two vehicles which are authorized for both business and
        personal use. CALSC indicated that logs are not maintained by the
        employees assigned these vehicles to document the use of the vehicles and
        that the employees do not reimburse the program a proportionate share of the
        vehicle lease and other vehicle related costs attributable to the personal use.
        At least one of the individuals who used a leased vehicle reimbursed gasoline
        costs for personal use. However, without any documentation, CALSC had no
        way to determine if the amount reimbursed accurately reflected the personal
        use of the vehicle.
       CALSC made expenditures for meals provided to CALSC employees.
        However, for some expenditures in our sample, CALSC did not maintain
        adequate records showing the specific business purposes of the meals and
        entertainment.

Because the appropriate records were not maintained, the value of all use of the
vehicles and the cost of some meals are required to be reported to IRS as wages
to the employees.

CALSC may be subject to IRS sanctions because employee fringe benefits were
not properly reported to the IRS. Classifying personal expenses as business
expenses distorts the true cost of providing legal services to those in need and
may reduce the funds available to provide service to clients.

Account Classification and Description

CALSC was not recording some expenditures in a consistent manner over time. In
FY 2005, NLADA membership dues were recorded in the general ledger account
for “Meetings” (account 7600) instead of Membership and Dues (account 5900)6.
In FY 2006 through FY 2009, the dues were recorded initially as Prepaid Expense
and then expensed during the year. In FY 2005 and FY 2006 subscriptions for
NLADA publications were charged to the Library Maintenance account (5700),
however, in FY 2007 through FY 2009 they were recorded in account 5900.
CALSC also recorded vehicle lease payments under the Staff Travel Account
instead of a lease or rent account.

CALSC indicated to the OIG that it has a process for reviewing coding errors and
the hiring of additional staff will be helpful in this function. However, the process
did not identify and correct these transactions.

Properly and consistently recording transactions helps ensure the accuracy of
financial reports so that those charged with governance have accurate information
to conduct oversight responsibilities.



                                                             
 6
     These NLADA membership dues were not charged to LSC funds.

                                                                17
Client Trust Fund Interest and Dormant Accounts

 Client Trust Fund Interest

A review of CALSC’s financial statements for FY 2008 and FY 2007 revealed that
the Client Trust Fund asset account was approximately $4,000 greater than the
related liability account. CALSC management indicated that the difference was
due to interest that had been accumulating over the years on Client Trust Funds.
CALSC recorded the interest as revenue to CALSC instead of as a payable to the
State Bar Association.
Interest earned on Client Trust Funds should have been recorded as a liability
rather than income and the funds submitted to the Louisiana Bar Association in
accordance with Interest on Lawyers’ Trust Account (IOLTA) provisions. As a
result of the audit, CALSC provided the calculation of the interest earned and
indicated that a check for $4,080.32 had been submitted on January 22, 2010 to
the Louisiana Bar Foundation-IOLTA Project.


 Dormant Accounts

While reviewing the Client Trust Fund interest issue, the OIG also noted that
CALSC was not remitting dormant Client Trust Fund accounts to the State.
CALSC’s Client Trust Funds are made up of two bank accounts – one account
(approximately $25,000) belonged to clients who had not redeemed their funds for
over five years, many of whom had not redeemed their funds for over 20 years.
The other account ($49,000) belonged to clients who are more current, some of
whom had not redeemed their funds for over five years. Funds held in these
accounts for more than five years should have been escheated to the Louisiana
Department of the Treasury, Unclaimed Property Division.

The Accounting Guide for LSC Recipients informs grantees that “state escheat
laws govern the disposition of unclaimed client trust funds.” In Louisiana, the
Uniform Unclaimed Property Act requires that unclaimed or abandoned property be
paid over to the Department of the Treasury after a statutorily defined period. La.
Rev. Stat. 9:152 et seq. With respect to the property of the sort held in the Client
Trust Funds at issue, Louisiana law prescribes a 5-year period after which the
funds are presumed abandoned. La. Rev. Stat. 9:154(A)(4) & (17). Consequently,
much of the property held in the CALSC’s Client Trust Funds is subject to
escheatment. Willful failure to report and/or deliver abandoned property to the
Department of the Treasury could subject the holder of the property to a penalty of
up to $25,000 plus twenty-five percent of the value of any property. La. Rev. Stat.
9:176(C).

CALSC maintains that Rule 1.15 of the Louisiana Rules of Professional Conduct
governs the Client Trust Funds in question and that it is aware or in possession of
an order or letter from the Supreme Court of Louisiana effectively exempting

                                         18
dormant Client Trust Funds from the Uniform Unclaimed Property Act as adopted
in Louisiana. The OIG requested that CALSC provide a copy of the material from
the Supreme Court of Louisiana upon which CALSC purports to rely, but the
material has not been provided. A review of publicly available authority revealed
that, in 2006, the Louisiana State Bar Association issued a public opinion
counseling lawyers that they “should review and consider the Uniform Unclaimed
Property Act of 1997, [La. Rev. Stat.] 9:151, et seq.” after a reasonable effort to
locate missing clients. Rules of Professional Conduct Committee, Public Opinion
06-RPCC-009. In 1993, the Attorney General of Louisiana informed CALSC that
“[a]fter CALSC has held [client trust] funds for five (5) years, the funds are presumed
abandoned and CALSC must comply with the requirements of the LUUPA [Louisiana
Uniform Unclaimed Property Act] ....” Attorney General Opinion No. 93-133. The
OIG brought the same issue to CALSC’s attention in a May 2000 inspection report
concerning Client Trust Funds. Report No. OIG 00-006. The OIG is not aware of
any basis for disregarding the force of the Uniform Unclaimed Property Act as
applied to the Client Trust funds in question and, given the protracted history of
these funds, will refer the matter to the Louisiana Department of the Treasury.

Recommendations – The CALSC Executive Director should:

Recommendation 10. Develop, fully document, and implement a cost allocation
method that meets LSC requirements.

Recommendation 11. Obtain and maintain in the CALSC books and records the
supporting documentation and explanations for the year-end accounting
adjustments and cost allocations for the past 5 years. Assess the impact of the
adjustments and allocations on the allowability of costs charged to LSC for that
period.

        Grantee Management Comments

        CALSC will insure that it has sufficiently detailed policies and
        procedures to address the proper handling of all transactions,
        including those identified by the OIG. Internal controls will be
        implemented (at the recommendation of CALSC’s IPA, accountant,
        and Board of Directors) and submitted to the OIG for approval.
        Steps will be taken to fully document the cost allocation system in
        CALSC’s Financial Manual.

        CALSC will maintain documents supporting audit adjustments
        recommended by its IPA and will designate an employee to be
        responsible for review and implementation of any proposed audit
        adjustments. CALSC will work with its IPA to reduce the number of
        annual audit adjustments and to improve its accounting function.
        Adequate documentation will be maintained of all allocations and



                                           19
      re-allocations. CALSC will seek input from its IPA, account [sic],
      Board of Directors, and LSC.

      OIG Evaluation of Grantee Management Comments

CALSC’s planned actions are responsive to the recommendations. However,
Recommendations 10 and 11 will remain open until CALSC has developed and
implemented the detailed policies, procedures, and internal controls described in
its response.

Recommendation 12. Ensure that LSC funds are not charged rent for use of the
Gonzales space.

Recommendation 13. If CALSC wishes to use LSC funds in the future to help
make mortgage payments on the Gonzales building loan, obtain formal approval
from LSC and record LSC’s interest in the property records for the building.

Recommendation 14. To the extent that rental costs are not recovered through
the questioned cost process, formally establish LSC’s interest in the Gonzales
building for the remaining balance.

      Grantee Management Comments

      CALSC denies that anything improper has occurred in connection
      with rental charges for the Gonzales office space. CALSC
      disagrees with the OIG’s findings related to this building. CALSC
      will seek further guidance from its IPA and LSC regarding this
      situation. This building was not purchased with LSC funds nor has
      LSC funds been used for its maintenance and operation. LSC was
      fully advised of CALSC’s purchase of this building and was well
      aware that CALSC charges LSC a fair market value for this office
      space. The location is near the courthouse, clerk of court annex,
      sheriff office, social service office and serves as CALSC disaster
      operation center for storms and other emergencies. This office was
      purchased in 2001 and has been reviewed by LSC and OIG
      personnel in the past.

      CALSC will seek LSC’s formal approval to continue to charge rent
      to LSC for the use of this building and to establish that LSC has no
      interest in this property.

      OIG Evaluation of Grantee Management Comments

CALSC disagreed with the OIG’s finding. Also, CALSC’s planned actions are not
responsive to the recommendations. While CALSC stated it will seek LSC’s
formal approval to continue to charge rent to LSC, it has not agreed to refund all
previous rent charges to LSC or to formally establish LSC’s interest in the

                                       20
building. CALSC claims that the purchase was reviewed in the past by LSC and
OIG, but provides no information as to when the reviews were conducted, the
reasons for the review, the information or representations provided by CALSC to
the reviewers, or the results of the reviews. CALSC’s practice of charging rent to
LSC funds for a building that CALSC owned creates an interest in the building for
LSC and constitutes a questioned cost for the rent charges because they are not
reasonable and necessary. The OIG will refer the questioned costs to LSC for
review in accordance with 45 C.F.R. § 1630.7. In addition Recommendations 12,
13, and 14 will be referred to LSC for follow up action.

Recommendation 15. Identify CALSC expenditures for vehicles and meals that
were not adequately documented as business expenses and, to the extent not
reimbursed by the employee for whom they were made, record the expenses as
fringe benefits.

Recommendation 16. For expenses determined to be fringe benefits as
described in Recommendation 15, file amended W-2 statements for CALSC
employees impacted and amended corporate tax returns in accordance with IRS
regulations.

      Grantee Management Comments

      CALSC has provided its records related to all expenditures for
      vehicle as well as of [sic] reimbursement for any personal
      expenses. It should be noted that CALSC has changed its method
      and procedure as to meals previously charged at various
      restaurants. When the corporation credit card is not available, the
      Executive Director (or any other CALSC employee) will pay the cost
      for business related charges and upon adequate documentation will
      be reimbursed for reasonable business expenditures.

      If LSC funds are used to pay for goods or service and are
      subsequently reimbursed, the reimbursement will be recorded as
      LSC revenue as required by applicable guidelines and by the
      accounting manual for LSC recipients.

      OIG Evaluation of Grantee Management Comments

CALSC’s comments do not address the recommendations and are therefore not
responsive.     The OIG recommended that CALSC comply with the IRS
regulations pertaining to employee fringe benefits. According to IRS guidance
any fringe benefit is taxable and must be included in the recipient’s pay unless
the law specifically excludes it. If records are not provided by the employee, the
value of all use of the automobile is wages to the employee. Since adequate
records were not maintained, CALSC is required to report certain expense to IRS
as wages. Failure to do so could result in monetary sanctions being imposed on

                                       21
CALSC by IRS. CALSC has not described the specific steps it has taken to
ensure that both business-related expenses and expenditures for employer-
provided vehicles are properly recorded, maintained, and reported to the IRS
when applicable. Recommendations 15 and 16 will be referred to LSC for follow
up action.

Recommendation 17. Establish adequate review processes to ensure that
posting errors are identified and corrected.

Recommendation 18. Establish adequate review processes to ensure that
transactions are accorded consistent treatment over time.

      Grantee Management Comments

      CALSC’s Financial Manual is being revised to provide procedures
      to ensure that posting errors are identified and corrected and that
      similar transactions are treated consistently.

      OIG Evaluation of Grantee Management Comments

CALSC’s planned actions are responsive to the recommendations. However,
Recommendations 17 and 18 will remain open until CALSC’s Financial Manual
has been revised, approved by the CALSC Board of Directors, and implemented.

Recommendation 19. Establish procedures to ensure that interest on client trust
funds is properly recorded and transferred to IOLTA in a timely manner.

Recommendation 20. Ensure that the appropriate reports are filed and payments
made to the Louisiana Department of the Treasury with respect to Client Trust
Funds that have been unclaimed for a period of over 5 years.

Recommendation 21. Establish procedures to (a) regularly review Client Trust
Fund accounts to identify property that has been held for more than 5 years and
(b) pay such property over to the Louisiana Department of the Treasury pursuant
to the Uniform Unclaimed Property Act.

      Grantee Management Comments

      Steps have been taken to ensure that interest earned on client trust
      funds is properly recorded as a liability and that the funds are
      submitted to the Louisiana Bar Association in accordance with the
      Interest on Lawyers’ Trust Account (IOLTA) provisions. CALSC will
      work with the Louisiana State Bar Association and the Louisiana
      Department of the Treasury to determine the proper disposition of
      these funds. Efforts will be made to locate the client-owners.



                                      22
       CALSC has corrected the error that occurred when it changed
       banks and the new bank did not automatically send the interest to
       IOLTA.

      OIG Evaluation of Grantee Management Comments

CALSC’s comments are not responsive to the recommendations. CALSC has
not sufficiently described the steps it has taken or plans to take that will address
the recommendations. While CALSC stated that steps have been taken to
properly record interest earned on client trust funds, no information was provided
as to what these steps were or if formal policies and procedures have or are
being developed. In addition, CALSC did not respond to Recommendations 20
and 21. Recommendations 19, 20, and 21 will be referred to LSC for follow-up
action.




                                        23
                                      APPENDIX I
      Standards Governing Allowability of Costs Under Corporation Grants or
                                   Contracts

I.      Allowability of Costs

           45 C.F.R. § 1630.3 Standards governing allowability
           of costs under Corporation grants or contracts.

     (a) General criteria. Expenditures by a recipient are allowable under the
     recipient’s grant or contract only if the recipient can demonstrate that the cost
     was:

           (1) Actually incurred in the performance of the grant or contract and the
           recipient was liable for payment;

           (2) Reasonable and necessary for the performance of the grant or contract
           as approved by the Corporation;

           (3) Allocable to the grant or contract;

           (4) In compliance with the Act, applicable appropriations law, Corporation
           rules, regulations, guidelines, and instructions, the Accounting Guide for
           LSC Recipients, the terms and conditions of the grant or contract, and
           other applicable law;

           (5) Consistent with accounting policies and procedures that apply
           uniformly to both Corporation-financed and other activities of the recipient;

           (6) Accorded consistent treatment over time;

           (7) Determined in accordance with generally accepted accounting
           principles;

           (8) Not included as a cost or used to meet cost sharing or matching
           requirements of any other federally financed program, unless the agency
           whose funds are being matched determines in writing that Corporation
           funds may be used for federal matching purposes; and

           (9) Adequately and contemporaneously documented in business records
           accessible during normal business hours to Corporation management, the
           Office of Inspector General, the General Accounting Office [Government
           Accountability Office] and independent auditors or other audit
           organizations    authorized    to  conduct     audits   of   recipients.


                                             I-1
II.       Reasonableness of Costs

             45 C.F.R. § 1630.3 Standards governing allowability
             of costs under Corporation grants or contracts.

      (b) Reasonable costs. A cost is reasonable if, in its nature or amount, it does not
      exceed that which would be incurred by a prudent person under the same or
      similar circumstances prevailing at the time the decision was made to incur the
      cost. If a questioned cost is disallowed solely on the ground that it is excessive,
      only the amount that is larger than reasonable shall be disallowed. In
      determining the reasonableness of a given cost, consideration shall be given to:

             (1) Whether the cost is of a type generally recognized as ordinary and
             necessary for the operation of the recipient or the performance of the
             grant or contract;

             (2) The restraints or requirements imposed by such factors as generally
             accepted sound business practices, arms-length bargaining, Federal and
             State laws and regulations, and the terms and conditions of the grant or
             contract;

             (3) Whether the recipient acted with prudence under the circumstances,
             considering its responsibilities to its clients and employees, the public at
             large, the Corporation, and the Federal government; and

             (4) Significant deviations from the established practices of the recipient
             which may unjustifiably increase the grant or contract costs.
       


       




                                             I-2
                                                                                                                      APPENDIX II
  TAYLOR PORTER                                                                                                        VICKI M . C ROCHET
        ATTORN EYS            AT    LAW                                                                                Parlner

                   Founded J 9 J2                                                                                      (225) 381·0242 TELEPHONE
                                                                                                                       (225) 346-8049 FACSIMILE
                                                                                                                       (225) 215-8706 DIRECT FAA
                                                                                                                       viCki.crochel@taylorporter.com




         August 23, 2010

         VIA EMAIL AND U.S. MAIL
         Mr. Ronald D. Merryman
         Assistant Inspector General for Audit
         Office of Inspector General
         3333 K Street, NW, 3rd Floor
         Washington, DC 20007-3558


         Re:         Capital Area Legal Services Corporation

         Dear Mr. Merryman:

        Please find enclosed Capital Area Legal Services Corporation's (CALSC) response to the draft
        report submitted to CALSC on Jun 24, 20 10.

        Thank yo          or your courtesies in allowing CALSC extra time to respond.


        ~;;~&f
        ic~~~rochet
        vic/
        E~closure
                   mm

          ,
           \ ..




       545565 .1

TAYLOR, PORTER, BROOKS & PHILLIPS, LLP.      POST OffiCE Box 2471
           www.taylo rporter.c.um           IB....TO'" Roucr, LOl'J5IAN.o\ 70821
                                                                                    8TH FLOOR CHASE TOIlo'ER S00JTH
                                                                                   1 451 FlC'RI1" STR~1:'T (70801)       I[225J 387·3221
                                                                                                                           1:::25J 346-8049
                                                                                                                                              TElEPHr)NE
                                                                                                                                              FACSII.' ILE
 August 16,2010

                                EXECUTIVE SUMMARY


 The following is Capital Area Legal Services Corporation (CALSC's) response to the
 June 24, 20 10 draft report of the Legal Services Corporation (LSC) Office of Inspector
 General (OIG):

 Sometime in February 2009, LSC, Office of Inspector General (OIG), Office of Audit
 (OA) notified CALSC that it was conducting a financial and compliance audit of
 CALSC's operation. Since that time, the OIG has made several visits to CALSC and
 CALSC has produced documents and other information in response to numerous
 inquiries. CALSC Board Chair, Brent Hicks, has urged OIG investigators throughout the
 review to advise him of any irregularities or compliance issues. CALSC has now
 received the June 24, 2010 OIG draft report.

In the Executive Summary, OIG concludes that "CALSC needs to make significant
improvements in its processes to insure that costs are allowable and properly supported
and that transactions are correctly recorded." CALSC accepts this recommendation and
as described in this response will work with its accountant, independent personal auditor
(IPA) and Board of Directors to insure that proper accounting practices are continued
and/or implemented. However, CALSC disagrees with the finding that expenditures
have not been properly documented and/or supported or that expenditures were
improperly charged to LSC.

CALSC submits the following in response to the OIG's itemized recommendations:

Recommendations I and 2:

1.         Revise the CALSC Financial Manual to require adequate documentation to
           support acceptable charges to LSC funds and provide explicit descriptions of
           the documentation required and ensure the manual is followed:

2.         Strengthen internal controls to ensure compliance with the CALSC Financial
           Manual.

Response:

CALSC's Financial Manual is being revised and will be presented to CALSC's Board for
review in October 2010 and submitted for final approval at the Board's January 2011
meeting. The revised Financial Manual will require adequate documentation to support
acceptable charges to LSC Funds and will include a description of the documentation
required. The manual will also require that documentation related to expenditures
demonstrate that the cost was actually incurred in the performance of the grant, was
reasonably necessary to the performance of the grant, and was adequately and
contemporaneously documented in business records. It will require CALSC to meet all


544690.1
                                            I
 of the requirements set out in 45 CFR 1630.3. CALSC will institute steps to ensure that
 the Financial Manual is followed and that any other requirements as stated by LSC, OIG,
 CALSC's IPA, accountant and Board of Directors are implemented and followed. In the
 interim, the recommendations ofCALSC's IPA and the OIG will be followed.

 Though it is implementing these recommendations, CALSC maintains that it has
 provided evidence that the expenditures reviewed by the OIG meet the criteria set out in
 45 CSR §1630J.

 Recommendation 3:

 3.        Limit expenditures for meals purchased with LSC funds to those with a
           legitimate purpose related to the grant. All meals purchased with LSC funds
           should have the business reason fully and contemporaneously documented to
           show that the expenditure was reasonable and necessary for the performance
           of the grant:

Response:

As described in CALSC' s responses to the OIG's Request for Information regarding
meals and entertairunent expenses, it was CALSC's practice to reimburse James Wayne,
Executive Director, for meal and entertainment expenses related to CALSC business.
This was dfectuated in some cases by direct submission of invoices from the vendor to
CALSC's accounting department. Mr. Wayne then presented documentation for those
items which were business related. Expenditures identified as personal expenses were
either paid by Mr. Wayne or those expenditures were deducted from his payroll check in
order to reimburse CALSC.

This practice has been changed. Modifications to CALSC's Financial Manual will
include changes regarding meal and entertainment expenses. These changes will require
CALSC employees to submit requests for reimbursement for any business-related
expense. There will no longer be any direct charges to CALSC for this activity.
Additionally, CALSC will implement better internal controls to determine the
allowability of meals and entertairunent expenses contemporaneous with receipt of
supporting documentation. CALSC will ensure that all meals and entertainment
expenditures using LSC funds are for business reasons and that those reasons are fully
and contemporaneously documented. Appropriate controls for use of the CALSC
corporate VISAIDebit Card will also be described in the Financial Manual.

Recommendations 4,5 and 6:

4.         Obtain LSC approval for all vehicle leases $10,000 or more:

S.         Ensure that vehicle users maintain records adequately documenting the
           business use of all vehicles. If personal use is permitted, maintain records
           adequately documenting such use.



544690.1                                     2
 6.        Should leased vehicles funded with LSC funds be approved for personal use,
           establish controls to ensure that the grantee is reimbursed for vehicle
           expenses for all personal use including lease payments, gasoline, insurance,
           and repairs and maintenance, and that the reimbursement is credited to the
           grantee's LSC funds.

 Response:

IF CALSC enters into a lease that requires LSC approval, CALSC will obtain that
approval. It has revised its vehicle use policy and that policy is attached to this response.
This policy has been implemented to address the recommendations of the OIO.

CALSC will ensure that proper vehicle use records are maintruned so that no cost
associated with personal use of the vehicle are charged to LSC funds. It should be noted
that neither of the present leased vehicles cost more than $10,000 per year during the
leased period.

CALSC submits that it has provided documentation for expenditures related to the leased
vehicles.

Recommendation 7:

7.         Ensure that all bank card charges are supported with an original receipt and
           that the business purpose of each charge is fully and contemporaneously
           documented:

Response:

CALSC's Financial Manual will be revised to address this recommendation.

Recommendations 8 and 9:

8.         Ensure that consulting contracts contain a clear and complete description of
           the services to be performed and a requirement that the consultant provide
           detailed reports for the services provided:

9.         Require that invoices for consultant contracts contain a detailed description
           of the work performed, not just a record of the hours expended. In addition,
           ensure that all items required by the contract are received and meet contract
           requirements:

Response:

The purpose of all consultant contracts will be adequately supported. Any such contracts
will clearly describe the deliverables, require an action plan, require description of the



544690.1
                                             3
services perfonned, and provide adequate contemporaneous documentation related to the
actual services perfonned. The contracts will also require that the consultants provide
reports related to their services. CALSC will implement procedures to ensure that all
items required by the contract are received and meet the contract requirements.

CALSC will require that all contracts meet the requirements recommended in the 20 JO
Edition of the Accounting Guide for LSC recipients. This will also be included in
CALSC's Financial Manual.

CALSC maintains that it has submitted justification for the payments made to consultants
and reviewed by OIG and that those payments were reasonable. Therefore, these
expenditures were properly incurred and charged to LSC funds .

Recommendations 10 & 11:

10.        Develop, fully document, and implement a cost allocation method that meets
           LSC requirements:

11.        Obtain and maintain in the CALSC books and records the supporting
           documentation and explanations for the year-end accounting adjustments
           and cost allocations for the past 5 years. Assess the impact of the
           adjustments and allocations on the allowability of costs charged to LSC for
           that period.

Response:

CALSC will insure that it has sufficiently detailed policies and procedures to address the
proper handling of all transactions, including those identified by the OIG. Internal
controls will be implemented (at the recommendation of CALSC 's IPA, accountant, and
Board of Directors) and submitted to the OIG for approval. Steps will be taken to fully
document the cost allocation system in CALSC' s Financial Manual.

CALSC will maintain documents supporting audit adjustments recommended by its IPA
and will designate an employee to be responsible for review and implementation of any
proposed audit adjustments. CALSC will work with its IPA to reduce the number of
annual audit adjustments and to improve its accounting function.             Adequate
documentation will be maintained of all allocations and re-allocations. CALSC will seek
input from its IPA, account, Board of Directors, and LSC.

Recommendations 12, 13, and 14:

12.        Ensure that LSC funds are not charged rent for use of the Gonzales space.

13.        Should CALSC wish to use LSC funds in the future to help make mortgage
           payments on the Gonzales building loan, obtain formal approval from LSC
           and record LSC's interest in the property records for the building.



544690.1                                    4
 14.       To the extent that rental costs are not recovered through the questioned cost
           process, formally establish LSC's interest in the Gonzales building for the
           remaining balance.

 Response:

CALSC denies that anything improper has occurred in connection with rental charges for
the Gonzales office space. CALSC disagrees with the OIG's findings related to this
building. CALSC will seek further guidance from its IPA and LSC regarding this
situation. This building was not purchased with LSC funds nor has LSC funds been used
for its maintenance and operation. LSC was fully advised of CALSC' s purchase of this
building and was well aware that CALSC charges LSC a fair market value for this office
space. The location is near the courthouse, clerk of court annex, sheriff office, social
service office and serves as CALSC disaster operation center for storms and other
emergencies. This office was purchased in 2001 and has been reviewed by LSC and OIG
personnel in the past.


CALSC will seek LSC's formal approval to continue to charge rent to LSC for the use of
this building and to establish that LSC has no interest in this property.

Recommendation 15 and 16:

15.        Identify CALSC expenditures for vehicles and meals that were not
           adequately documented as business expenses and to the extent not
           reimbursed by the employee for whom they were made, record the expenses
           as fringe benefits:

16.        For expenses determined to be fringe benefits as described in
           Recommendation 15, file amended W-2 statements for CALSC employees
           impacted and amended corporate tax returns in accordance with IRS
           regulations.

Response:

CALSC has provided its records related to all expenditures for vehicle as well as of
reimbursement for any personal expenses. It should be noted that CALSC has changed
its method and procedure as to meals previously charged at various restaurants. When
the corporation credit card is not available, the Executive Director (or any other CALSC
employee) will pay the cost for business related charges and upon adequate
documentation will be reimbursed for reasonable business expenditures.

If LSC funds are used to pay for goods or service and are subsequently reimbursed, the
reimbursement will be recorded as LSC revenue as required by applicable guidelines and
by the accounting manual for LSC recipients.



544690.1                                    5
  CALSC has taken steps to insure that both business related expenses and expenditures for
  employer provided vehicles are properly recorded, maintained, and reported to the IRS
  when applicable.

  Recommendations 17 and 18:

  17.      Establish adequate review processes to ensure that posting errors are
           identified and corrected.

 18.       Establish adequate review processes to ensure that transactions are accorded
           consistent treatment over time.

 Response:

 CALSC's Financial Manual is being revised to provide procedures to ensure that posting
 errors are identified and corrected and that similar transactions are treated consistently.

 Recommendations 19,20, and 21:

 19.       Establish procedures to ensure that interest on client trust funds is properly
           recorded and transferred to IOLTA in a timely manner.

 20.       Ensure that the appropriate reports are filed and payments made to the
           Louisiana Department of the Treasury with respect to Client Trust Funds
           that have been unclaimed for a period of over 5 years.

 21.       Establish procedures to (a) regularly review Client Trust Fund accounts to
           identify property that has been held for more than 5 years and (b) pay such
           property over to the Louisiana Department of the Treasury pursuant to the
           Uniform Unclaimed Property Act.

 Response:

  Steps have been taken to ensure that interest earned on client trust funds is properly
  recorded as a liability and that the funds are submitted to the Louisiana Bar Association
  in accordance with the Interest on Lawyers' Trust Account (IOLTA) provisions. CALSC
  will work with the Louisiana State Bar Association and the Louisiana Department of the
  Treasury to determine the proper disposition of these funds. Efforts will be made to
. locate the client-owners.

CALSC has corrected the error that occurred when it changed banks and the new bank
did not automatically send the interest to IOL TA.

Conclusion:




544690.1
                                            6
 In summary, CALSC denies that it has improperly used LSC funds . It remains
 committed to improving its financial practices to insure that they meet all pertinent
 requirements including those described by the OIG, LSC, and CALSC' s IPA. CALSC
 remains committed to working with LSC to ensure that its program complies with all
 applicable requirements.




544690.1
                                         7
             CAPITAL AREA LEGAL SERVICES CORPORATION
                        VEHICLE USE POLICY



Capital Area Legal Services Corporation (CALSC) Board of Directors sets policy and
guidelines for vehicles used by CALSC employees.

       I.     CALSC'S Vehicle Use Policy

             The Board of Directors authorizes the Executive Director the business use
             of the company vehicle 24hrs because of the nature of the Executive
             Director's work and for security purposes. Any personal incidental use,
             i.e., commuting to and from work, stopping at drug store, grocery store in
             route home or to the office, a trip log is not necessary. Personal intra-city
             and intra-state, a trip log (see attached) must be maintained and submitted
             to the Accounting Department monthly. Any extended use of corporate
             vehicle for personal use out-of-state must be submitted to the Board Chair
             or his designee for approval and a trip log must be maintained. The
             Executive Director and any employee will reimburse the corporation at a
             prevailing state rate per mile at the end of each month for personal use of
             the vehicle.

      2.     The Board of Directors authorizes the Executive Director to supervise the
             use of corporate vehicles for all corporate employees. The personal use of
             a corporate vehicle must be approved by the Executive Director.

             The Accounting Department will be responsible for filing any necessary
             reports to the Internal Revenue Services for the personal use of corporate
             vehicles at the end of each year on the employee' s W-2 Form.

             The Executive Director authorized the Community Legal Education
             employee 24 hour use of the vehicle for security reasons. This employee
             is subject to the same use of the company vehicle as the Executive
             Director, i.e., for personal use must seek authorization from the Executive
             Director and must maintain a vehicle trip log.
